CERTIFICATE OF COMPLIANCE
NO. 19-262

Xiao-Ying Yu
Petitioner
v.
Maryland Department of Health, Secretary Robert R. Neal, and
Maryland Department of Budget and Management,
Secretary David Brinkley

Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Rehearing contains 2,997 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d) and (g-iv).
I declare under penalty of perjury that the forgoing is true and correct.
Executed on November 14, 2019
Pfr
41P4,
r
i ao-Ying Yu, pro se.
Mailing address
P.O. Box 293
Abingdon, MD 21009
(410)671-9823
November 14, 2019

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on 14th day of November, 2019, hard copies of
the petition for rehearing, and Certificate of Compliance are mailed via first- class
mail, postage pre-paid, to
Mr. James N. Lewis
Assistant Attorney General
Maryland Department of Health
300 W. Preston Street, Suite 302
Baltimore, MD 21201
Mr. Nicholas E. Johansson
Assistant Attorney General, Principle Counsel,
Maryland Department of Health
300 W. Preston Street, Suite 302
Baltimore, MD 21201

Mr. Clifton R. Gray
Assistant Attorney General
Maryland Department of Budget and Management
300 W. Preston Street, Suite 407
Baltimore, MD 21201

Mr. Brian E. Frosh
State Attorney General of Maryland
200 ST. Paul Place,
Baltimore, MD 21202

Reszectf lly,
1,

Xiao-Ying Yu

WY'

